App. 1
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
SUMMARY ORDER
Rulings by summary order do not have precedential effect. Citation to a summary order filed
on or after January 1, 2007, is permitted and is
governed by Federal Rule of Appellate Procedure 32.1 and this Court’s Local Rule 32.1.1.
When citing a summary order in a document
filed with this Court, a party must cite either the
Federal Appendix or an electronic database
(with the notation “summary order”). A party citing a summary order must serve a copy of it on
any party not represented by counsel.
At a stated term of the United States Court
of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse,
40 Foley Square, in the City of New York, on the
12th day of November, two thousand nineteen.
PRESENT: JOSÉ A. CABRANES,
REENA RAGGI,
Circuit Judges,
EDWARD R. KORMAN,
District Judge*

* Judge Edward R. Korman, of the United States District
Court for the Eastern District of New York, sitting by designation.

App. 2
ZAID ABDUL-AZIZ,
INDIVIDUALLY, AND ON
BEHALF OF ALL OTHERS
SIMILARLY SITUATED,

Plaintiff-Appellant,
v.

19-782-cv

NATIONAL BASKETBALL
ASSOCIATION, PLAYERS’
PENSION PLAN,
Defendant-Appellee.
FOR PLAINTIFFAPPELLANT:

JASON L. MELANCON,
Melancon Rimes, LLC,
Baton Rouge, Louisiana.

FOR DEFENDANTAPPELLEE:

MYRON D. RUMELD, Neil
V. Shah, John E. Roberts,
Proskauer Rose LLP,
New York, New York;
Jules L. Smith, Blitman
& King LLP, Rochester,
New York.

Appeal from a March 20, 2019 judgment of the
United States District Court for the Southern District
of New York (Vernon S. Broderick, Judge).
UPON DUE CONSIDERATION WHEREOF,
IT IS HEREBY ORDERED, ADJUDGED, AND
DECREED that the judgment of the District Court be
and hereby is AFFIRMED.
Plaintiff-Appellant Zaid Abdul-Aziz (“Abdul-Aziz”)
challenges the District Court’s dismissal of his

App. 3
complaint against Defendant-Appellee National Basketball Association, Players’ Pension Plan (“the Plan”).
Abdul-Aziz argues that he timely brought claims under the Employee Retirement Income Security Act of
1974 (“ERISA”), 29 U.S.C. § 1001 et seq., against the
Plan for benefits to which he believes he is entitled.
The District Court found that such claims were, in fact,
barred by the statute of limitations for ERISA actions.
We assume the parties’ familiarity with the underlying
facts, the procedural history of the case, and the issues
on appeal.
“We review de novo a district court’s grant of a motion to dismiss, including its legal interpretation and
application of a statute of limitations.” Deutsche Bank
Nat. Tr. Co. v. Quicken Loans Inc., 810 F.3d 861, 865 (2d
Cir. 2015). In ERISA cases, “the controlling limitations
period is that specified in the most nearly analogous
state limitations statute.” Miles v. New York State Teamsters Conference Pension and Ret. Fund Emp. Pension
Ben. Plan, 698 F.2d 593, 598 (2d Cir. 1983). Both parties agree that New York Civil Practice Law and Rules
§ 213 provides the relevant limitations period in this
case: six years.
The statute of limitations period begins running
in an ERISA action when “a plan clearly and unequivocally repudiates the plaintiff ’s claim for benefits and
that repudiation is known, or should be known, to the
plaintiff.” Carey v. Int’l Bhd. of Elec. Workers Local 363
Pension Plan, 201 F.3d 44, 50 (2d Cir. 1999). Knowledge
is imputed to a plaintiff when there is “enough information available” for the plaintiff to conclude that the

App. 4
basis for a claim exists. Novella v. Westchester Cty., 661
F.3d 128, 147 (2d Cir. 2011).
The District Court concluded that such knowledge
could be imputed to Abdul-Aziz by, at latest, July 2001,
when the Plan terminated its payments under his accelerated retirement schedule. Abdul-Aziz v. Nat’l Basketball Ass’n Players’ Pension Plan, 2019 WL 1284591,
at *4–5 (S.D.N.Y. Mar. 20, 2019). According to the District Court, if Abdul-Aziz believed he was owed more
money at that point, then he should have brought an
action immediately after the benefits ended, or at some
time within the next six years.
We agree. By July 2001, Abdul-Aziz had sufficient
notice that he would receive no future benefits—including any future cost-of-living adjustments (“COLAs”). Indeed, Abdul-Aziz likely had notice as early as
1997 that he would not be compensated for future COLAs: at that point he was receiving COLAs and had
been informed by the Plan’s counsel that his benefits,
presumably including future COLAs, would terminate
in 2001. Nevertheless, even if we adopt the later date
as the moment that his cause of action accrued, it remains the case that his complaint below was not
timely. Abdul-Aziz filed this action at least 10 years too
late.

App. 5
CONCLUSION
For the foregoing reasons, we AFFIRM the March
20, 2019 judgment of the District Court.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk
[SEAL]
/s/ Catherine O’Hagan Wolfe

App. 6
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
----------------------------------------- X
:
ZAID ABDUL-AZIZ,
Individually and on behalf of :
all others similarly situated, :
: 17-CV-8901 (VSB)
Plaintiff,
:
OPINION &
:
- against ORDER
:
NATIONAL BASKETBALL
: (Filed Mar. 20, 2019)
ASSOCIATION PLAYERS’
:
PENSION PLAN,
:
Defendant. :
----------------------------------------- X
Appearances:
Jason Luke Melancon
Melancon Rimes
Baton Rouge, LA
Counsel for Plaintiff
Myron D. Rumeld (New York, NY)
Neil V. Shah (Newark, NJ)
Proskauer Rose LLP
Brian Joseph LaClair (Syracuse, NY)
Jules L. Smith (Rochester, NY)
Blitman & King LLP
Counsel for Defendant
VERNON S. BRODERICK, United States District Judge:
Plaintiff Zaid Abdul-Aziz brings this action pursuant to the Employee Retirement Income Security Act
of 1974 (“ERISA”), 29 U.S.C. § 1001, et seq., asserting

App. 7
claims for unpaid retirement benefits under the National Basketball Association Players’ Pension Plan
(“Defendant” or the “Plan”). Before me is Defendant’s
motion to dismiss Plaintiff ’s Complaint pursuant to
Federal Rule of Civil Procedure 12(b)(6) for failure to
state a claim. Because I find that Plaintiff ’s claim is
barred by the applicable statute of limitations, Defendant’s motion to dismiss is GRANTED.
I.

Background1

The National Basketball Association (“NBA”)
Players’ Pension Plan provides defined retirement benefits to retired NBA players. (Doc. 1 (“Compl.”), ¶ 6.)
Plaintiff Zaid Abdul-Aziz played for the NBA from
1968 to 1978, and received eight years of credited service toward his retirement. (Id. ¶ 5.) Plaintiff ’s retirement date was set for May 1996, but he applied for
early retirement benefits in May 1991. (Id. ¶¶ 90–91.)
Under the Plan, participants may elect a “Normal
Retirement Pension”—a monthly benefit commencing
“on the first day of the first month following the
player’s Normal Retirement Date and continuing to be
paid on the first day of each month up to and including
1

The following factual summary is drawn from the allegations of the Complaint and exhibits attached or incorporated by
reference thereto, (Doc. 1), unless otherwise indicated. I assume
the allegations in the Complaint to be true for purposes of this
motion. See Kassner v. 2nd Ave. Delicatessen Inc., 496 F.3d 229,
237 (2d Cir. 2007). My references to these allegations should not
be construed as a finding as to their veracity, and I make no such
findings.

App. 8
the month in which the player dies”—i.e., a life annuity—or a number of other forms of benefit payments.
(See id. ¶¶ 11–15.) One of these options is “Installments for a Fixed Period,” which are “[p]aid in equal
monthly installments for a fixed number of years.”
(Doc. 1-1, § 3.9(c).) Each of these alternative payment
options provides a benefit that is the “Actuarial Equivalent” of the participant’s Normal Retirement Pension.
(Id. § 3.9.)
Plaintiff submitted his Application for Retirement
Benefits on June 22, 1991, and elected to receive his
benefit in the form of “Installments for a Fixed Period”;
specifically, he chose the “10 Year Certain Only” option.
(Doc. 1-28, at 5.) The application explained to Plaintiff
that by selecting “Installments for a Fixed Period”:
A benefit will be paid for a fixed number of
payments, for the period you select (e.g., 5
years, 10 years). Upon the expiration of this
period, all benefits will cease. The total of all
payments you receive will equal the entire
value of your retirement benefit.
(Id.) Under the version of the Plan in effect at the time
Plaintiff applied for retirement benefits, each plan participant who had not yet begun to receive benefits under the Plan was entitled to a Normal Retirement
Pension in the amount of $200 per month for each year
of credited service. (Compl. ¶ 37.) At that time, the
Plan contained no provisions for future increases to
this benefit amount, including any increases resulting

App. 9
from cost-of-living adjustments (“COLAs”).2 (Compl.
¶¶ 97–99.)
Plaintiff, who had been credited with eight years
of service, would therefore have received a Normal
Retirement Pension of $1,600 per month for life
($200 x 8 years of service), if he retired at age 50. (Id.
¶ 94.) Because Plaintiff had elected to retire early,
however, this amount was reduced by approximately
1/3, resulting in a life annuity of $1,067.20 per month.
(Id. ¶ 95.) The Actuarial Equivalent of that amount
under the 10 Year Certain Only option that Plaintiff
elected was $1,813.17 per month for a period of ten
years. (Id. ¶ 96(b).) On July 12, 1991, the Plan sent a
letter to Plaintiff confirming receipt of his Application
for Retirement Benefits, and informing Plaintiff that
he would begin “receiving monthly payments of
$1,851.643 from this Plan beginning on August 1, 1991.

2

The Internal Revenue Code provides for periodic cost-ofliving adjustments, which increase the maximum annual benefit
that may be paid to pension plan participants under federal law.
See 26 U.S.C. §§ 415(b), (d). Plans are permitted, but not required,
to incorporate by reference these cost-of-living adjustments into
the plans’ benefit calculations. See 26 C.F.R. § 1.415(a)-1(d)(3) (“A
plan is permitted to incorporate by reference the limitations of
section 415.”).
3
It appears that the amount of Plaintiff ’s monthly benefit
increased from $1,813.17 to $1,851.64 due to the time lag between
the date on which Plaintiff requested his Application for Retirement Benefits and the date on which he ultimately began receiving those benefits. The Benefit Calculation in Plaintiff ’s
application assumed that Plaintiff would begin receiving his 10
Year Certain Only payments on May 1, 1991, but Plaintiff actually did not begin receiving payments until August 1, 1991,

App. 10
Since [he] elected to receive [his] benefit in the form of
the 10 Year Certain Only, [he would] cease receiving a
benefit from this Plan on July 31, 2001.” (Doc. 1-23.)
Between August 1, 1991 and August 31, 1996, Plaintiff
received a monthly benefit payment in the amount of
$1,851.64. (See Doc. 1-28, at 2.)
Effective September 1, 1996, the Plan was
amended as a result of a 1995 collective bargaining
agreement (“1995 CBA”), (Compl. ¶ 42), “to reflect the
Maximum Monthly Benefit change[ ] made pursuant to
the 1995 CBA,” (id. ¶ 49). The resulting “1996 Plan” increased the Normal Retirement Pension from $200 to
$285 per month for each year of credited service. (Id.
¶ 51.) This increased benefit applied to participants
who had not yet begun to receive benefits as of September 1, 1996, as well as existing Plan participants who,
like Plaintiff, were already receiving a monthly benefit.
(Id. ¶ 46.) Pursuant to the negotiated terms of the 1995
CBA, the 1996 Plan also provided that in each subsequent year, the Normal Retirement Pension would be
“adjusted for increases in the cost of living in the same
manner as the cost of living adjustment for the dollar
limitation under [26 U.S.C.] section 415(b)(1)(A).” (Doc.
1-18, Art. IV § 1(a)(1)(i)(C).) This language incorporates by reference the COLAs set forth in the Internal
Revenue Code (“IRC”), which annually increase the
maximum amount that may be paid to pension plan
participants under federal law. See 26 U.S.C. §§ 415(b),
(d). The various benefit increases under the 1996 Plan
thereby slightly reducing his early retirement penalty. (See Doc.
1-28, at 9; Doc. 1-23.)

App. 11
applied “only with respect to benefit payments made
on or after September 1, 1996 and [did] not require the
recalculation of benefit payments made prior to such
date.” (Doc. 1-9, § 3.2(k)(ii); see also Doc. 1-18, Art. IV
§ 1(a)(1)(i)(D).)
As a result of the 1996 Plan, on September 1, 1996,
Plaintiff ’s monthly benefit increased to $2,479.53.
(Compl. ¶¶ 104–05.) In a letter dated October 30, 1997,
the Plan confirmed that “[e]ffective September 1, 1996,
[Plaintiff ’s] monthly benefit was increased to
$2,479.53 pursuant to the [1995] Collective Bargaining
Agreement.” (Doc. 1-24.) The letter further reminded
Plaintiff that “[h]is benefits [we]re scheduled to cease
July 31, 2001.” (Id.) In accordance with the 1995 CBA
and subsequent collective bargaining agreements,
Plaintiff ’s monthly benefit continued to periodically
increase between 1997 and 2001 such that Plaintiff ’s
final monthly payment in July 2001 was $2,892.88.
(Compl. ¶¶ 106–09.)
On April 26, 2015—nearly fourteen years after
Plaintiff received his final monthly benefit under the
10 Year Certain Only payment plan—Plaintiff, through
an attorney, sent a letter to the Plan asserting that “the
NBA purchased all of [Plaintiff ’s] lifetime pension benefits in exchange for a payment that was less than the
amount he would have received without such buy-out
transaction.” (Id. ¶ 148.) On June 3, 2015, the Plan
responded that Plaintiff ’s pension benefits “were paid
in full over the period from August 1, 1991 through
July 31, 2001” and that Plaintiff therefore had no further rights under the Plan. (Doc. 1-28, at 1–2.)

App. 12
II.

Procedural History

Plaintiff filed his Complaint, individually and on
behalf of all others similarly situated, on November 15,
2017. (Doc. 1.) The Complaint alleges two causes of action: first, that the Plan violated ERISA § 502(a)(1)(B),
29 U.S.C. § 1132(a)(1)(B), by failing to include in Plaintiff ’s benefit calculation COLAs that the Plan awarded
to participants who elected to receive a life annuity,
(Compl. ¶¶ 132–34); and second, that the Plan breached
ERISA’s anti-cutback rule, § 204(c)(3) and (g), 29 U.S.C.
§ 1054(c)(3) and (g), by failing to provide the Actuarial
Equivalent of the Normal Retirement Pension to Plaintiff and other individuals who elected to receive an optional form of benefit payments that terminated prior
to their deaths, (Compl. ¶¶ 135–36).
On March 2, 2018, the Plan filed its motion to dismiss, including a memorandum of law in support.
(Docs. 21–22.) On April 4, 2018, Plaintiff filed his opposition to Defendant’s motion to dismiss, (Doc. 25), and
Defendant filed its reply on May 25, 2018, (Doc. 26). On
June 11, 2018, I denied Plaintiff ’s subsequent request
for leave to file a sur-reply. (Doc. 29.)
III.

Legal Standard

To survive a motion to dismiss under Federal Rule
of Civil Procedure 12(b)(6), “a complaint must contain
sufficient factual matter, accepted as true, to ‘state a
claim to relief that is plausible on its face.’ ” Ashcroft v.
Iqbal, 556 U.S. 662, 678 (2009) (quoting Bell Atl. Corp.
v. Twombly, 550 U.S. 544, 570 (2007)). A claim will have

App. 13
“facial plausibility when the plaintiff pleads factual
content that allows the court to draw the reasonable
inference that the defendant is liable for the misconduct alleged.” Id. This standard demands “more than a
sheer possibility that a defendant has acted unlawfully.” Id. “Plausibility . . . depends on a host of considerations: the full factual picture presented by the
complaint, the particular cause of action and its elements, and the existence of alternative explanations so
obvious that they render plaintiff ’s inferences unreasonable.” L-7 Designs, Inc. v. Old Navy, LLC, 647 F.3d
419, 430 (2d Cir. 2011).
In considering a motion to dismiss, a court must
accept as true all well-pleaded facts alleged in the complaint and must draw all reasonable inferences in the
plaintiff ’s favor. Kassner, 496 F.3d at 237. A complaint
need not make “detailed factual allegations,” but it
must contain more than mere “labels and conclusions”
or “a formulaic recitation of the elements of a cause of
action.” Iqbal, 556 U.S. at 678 (internal quotation
marks omitted). Although all allegations contained in
the complaint are assumed to be true, this tenet is “inapplicable to legal conclusions.” Id.
Finally, a complaint is “deemed to include any
written instrument attached to it as an exhibit or any
statements or documents incorporated in it by reference.” Chambers v. Time Warner, Inc., 282 F.3d 147, 152
(2d Cir. 2002) (internal quotation marks omitted).

App. 14
IV.

Discussion

Defendant contends (1) that Plaintiff ’s claims pursuant to ERISA § 502(a)(1)(B), 29 U.S.C. § 1132(a)(1)(B),
and ERISA § 204(c)(3) and (g), 29 U.S.C. § 1054(c)(3)
and (g), are time-barred; and (2) that, as a matter of
law, such claims fail to state a claim upon which relief
may be granted. Since I find that Plaintiff ’s claims are
untimely, I do not reach Defendant’s challenge to those
claims on the merits.
A.

Applicable Law

“The lapse of a limitations period is an affirmative
defense that a defendant must plead and prove. However, a defendant may raise an affirmative defense in
a pre-answer Rule 12(b)(6) motion if the defense appears on the face of the complaint.” Staehr v. Hartford
Fin. Servs. Grp., Inc., 547 F.3d 406, 425 (2d Cir. 2008)
(internal citation omitted). ERISA does not provide a
statute of limitations; “[t]herefore, the applicable limitations period is that specified in the most nearly
analogous state limitations statute.” Burke v. PriceWaterHouseCoopers LLP Long Term Disability Plan, 572
F.3d 76, 78 (2d Cir. 2009) (internal quotation marks
omitted). “Under the New York Civil Practice Law
and Rules, an action under a contract—for employee
benefit plans, in effect, are contracts—must be commenced within six years.” Hirt v. Equitable Ret. Plan
for Emps., 450 F. Supp. 2d 331, 333 (S.D.N.Y. 2006) (citing N.Y. C.P.L.R. § 213), aff ’d, 285 F. App’x 802 (2d Cir.
2008). Thus, New York’s six-year limitations period for

App. 15
contract actions governs this ERISA action. See Burke,
572 F.3d at 78 (determining that the limitations period
for contract actions “is most analogous to § 1132 actions”); Hirt, 450 F. Supp. 2d at 333 (applying six-year
limitations period to actions pursuant to 29 U.S.C.
§ 1054).
“[A] cause of action under ERISA accrues upon a
clear repudiation by the plan that is known, or should
be known, to the plaintiff—regardless of whether the
plaintiff has filed a formal application for benefits.”
Carey v. Int’l Bhd. of Elec. Workers Local 363 Pension
Plan, 201 F.3d 44, 49 (2d Cir. 1999); see also Miller v.
Fortis Benefits Ins. Co., 475 F.3d 516, 521 (3d Cir. 2007)
(“[C]lear repudiation . . . does not require a formal denial to trigger the statute of limitations”; rather, repudiation occurs “when a beneficiary knows or should
know he has a cause of action.” (emphasis in original)).
Where a plaintiff ’s claim is predicated on an underpayment of benefits, the claim accrues when the plaintiff
is “put on notice that the defendants believed the
method used to calculate his [ ] pension was correct.”
Novella v. Westchester Cty., 661 F.3d 128, 144 (2d Cir.
2011) (internal quotation marks omitted). The Second
Circuit has determined that “notice of a miscalculation
can be imputed to a [recipient of benefits]—and the
statute of limitations will start to run—when there
is enough information available to the [recipient] to
assure that he knows or reasonably should know of
the miscalculation.” Id. at 147; see also DePasquale v.
DePasquale, No. 12-CV-2564 (RRM)(MDG), 2013 WL
789209, at *13 (E.D.N.Y. Mar. 1, 2013) (“The statute of

App. 16
limitations begins to run when the plaintiff discovers,
or with due diligence should have discovered, the injury that is the basis of the litigation.”), aff ’d, 568 F.
App’x 55 (2d Cir. 2014).
B.

Application

The parties agree that New York’s six-year statute
of limitations for breach of contract governs Plaintiff ’s
claims. (See Def.’s Br. 9; Pl.’s Opp’n 19.)4 They disagree,
however, as to when that limitations period began to
run. Defendant argues that Plaintiff ’s claim accrued—
at the latest—by July 31, 2001, when Plaintiff stopped
receiving benefit payments from the Plan. (Def.’s Br. 9.)
Plaintiff, by contrast, contends that the limitations period did not begin to run until June 3, 2015, when the
Plan formally denied his claim for additional benefits.
(Pl.’s Opp’n 19.)
The exhibits attached to the Complaint demonstrate that beginning as early as June 22, 1991—when
Plaintiff elected to receive his benefit payments for a
fixed period—and repeatedly thereafter by letter, the
Plan advised Plaintiff that his benefit payments would
cease entirely in July 2001. First, the Application for
Retirement Benefits that Plaintiff completed on June
4

“Def.’s Br.” refers to the Memorandum of Law in Support
of Defendant National Basketball Association Players’ Pension
Plan’s Motion to Dismiss the Complaint, filed March 2, 2018,
(Doc. 22). “Pl.’s Opp’n” refers to the Memorandum of Law in Response to Defendant National Basketball Association Players’
Pension Plan’s Motion to Dismiss the Complaint, filed April 4,
2018, (Doc. 25).

App. 17
22, 1991 informed Plaintiff that the “Installments for
a Fixed Period” payment option that he selected meant
that “[a] benefit will be paid for a fixed number of payments, for the period you select (e.g., 5 years, 10 years).
Upon the expiration of this period, all benefits will
cease.” (Doc. 1-28, at 5.) Similarly, the July 12, 1991
letter confirming receipt of Plaintiff ’s application explained, “Since you elected to receive your benefit in
the form of the 10 Year Certain Only, you will cease
receiving a benefit from this Plan on July 31, 2001.”
(Doc. 1-23.)
Moreover, even after Plaintiff ’s benefit payments
began to increase annually following the Plan’s incorporation of the IRC’s cost-of-living adjustments, the
Plan continued to advise Plaintiff that all payments—
including the COLAs Plaintiff began to receive in September 1996—would cease on July 31, 2001. (See, e.g.,
Doc. 1-24 (October 30, 1997 letter informing Plaintiff
that, as of September 1, 1996, his monthly benefit increased to $2,479.53 but that his benefit payments
were still “scheduled to cease” entirely on July 31,
2001).)5 These statements are unambiguous. While

5

Because this 1997 letter—which was sent after the Plan
incorporated into its prospective benefit calculations the periodic
COLAs set forth in 26 U.S.C. § 415(d)—clearly informed Plaintiff
that he would receive no additional benefit payments after July
31, 2001, Plaintiff ’s claims arguably accrued long before he
stopped receiving monthly benefit payments. See Novella, 661
F.3d at 144 (holding that a claim accrues when the plaintiff is “put
on notice that the defendants believed the method used to calculate his [ ] pension was correct”). However, I need not make such
a finding because even assuming the six-year limitations period

App. 18
Plaintiff attempts to distinguish between the “Actuarial Equivalent” benefit—which he selected in his 1991
application and which he understood would terminate
in 2001—and potential “additional benefits accruing
after payment of the Actuarial Equivalent,” (Pl.’s
Opp’n 20), the Plan repeatedly and unequivocally informed Plaintiff that all benefits (including those benefits awarded in the form of cost-of-living adjustments)
to which he was entitled under the Plan would terminate as of July 31, 2001. Any argument that these
communications left open the possibility that Plaintiff
might accrue “future substantive rights” to additional
benefits, (see Pl.’s Opp’n 24), after the full payment of
his 10 Year Certain Only benefit is not plausible and
strains credulity.
Furthermore, all benefit payments—including the
COLAs that Plaintiff received from 1996 to 2001—did
in fact cease as of July 31, 2001. If Plaintiff believed he
was entitled to additional monies from the Plan, the
complete termination of his benefits on July 31, 2001
was undoubtedly sufficient to put him on notice of Defendant’s alleged error. Accordingly, I find that the
Plan’s repeated written warnings throughout the
1990s, followed by the actual cessation of any and all
benefit payments on July 31, 2001, served as a clear
repudiation by the Plan of any claim by Plaintiff to future benefits. By July 2001, there was more than
“enough information available” to Plaintiff such that
he “reasonably should [have] know[n]” of the alleged
did not begin to run until July 31, 2001, it expired long before
Plaintiff filed the instant action.

App. 19
miscalculation of his benefits. Novella, 661 F.3d at 147;
see also Moses v. Revlon Inc., No. 15cv-4144 (RJS), 2016
WL 4371744, at *5 (S.D.N.Y. Aug. 11, 2016) (finding
that significant discrepancy between benefit actually
received by Plaintiff and greater amount Plaintiff believed was owed “rendered the supposed miscalculation obvious and constitute[d] a clear repudiation of
Plaintiff ’s claim”), aff ’d, 691 F. App’x 16 (2d Cir. 2017);
Hirt, 285 F. App’x at 804 (finding that ERISA claim accrued when Plaintiff received summary plan description (“SPD”) because to the extent Plaintiff “considered
himself entitled to benefits other than those disclosed
in the SPD, the SPD unequivocally repudiated that understanding” (internal quotation marks omitted)).
The fact that the Plan did not formally deny Plaintiff ’s subsequent request for additional benefits until
June 2015—nearly fourteen years after Plaintiff received his final benefit payment—cannot and does not
render Plaintiff ’s claims timely. To hold that the limitations period did not begin to run until Plaintiff finally inquired into the calculation of his benefits and
the Plan rejected his claim would reward Plaintiff ’s
lack of diligence and permit other potential ERISA
claimants to effectively extend the limitations period
indefinitely. See Holland v. Becker, No. 08-CV-6171L,
2013 WL 5786590, at *4 (W.D.N.Y. Oct. 28, 2013)
(“[P]laintiffs [could not] unilaterally extend their limitations period by filing administrative claims years after they were put on notice” of how their benefits were
calculated); see also Novella, 661 F.3d at 146-47 (rejecting a standard that would permit a beneficiary to

App. 20
“collect benefit checks for twenty or thirty years without any obligation to inquire as to the correctness of
the calculations underlying the benefit payments”).
Such an approach would wholly undermine the very
purpose of a statute of limitations. See Order of R.R.
Telegraphers v. Ry. Express Agency, Inc., 321 U.S. 342,
348-49 (1944) (“Statutes of limitation . . . are designed
to promote justice by preventing surprises through the
revival of claims that have been allowed to slumber until evidence has been lost, memories have faded, and
witnesses have disappeared.”).
Accordingly, I find that the applicable six-year
statute of limitations began to run no later than July
31, 2001, and expired six years later, on July 31, 2007—
more than ten years before Plaintiff initiated this suit.
Because I have determined that Plaintiff ’s claims are
time-barred and must therefore be dismissed, I do not
reach Defendant’s challenge to the merits of Plaintiff ’s
claims.
V.

Conclusion

For the foregoing reasons, Defendant’s motion to
dismiss, (Doc. 21), is GRANTED.
The Clerk of Court is respectfully directed to enter
judgment for Defendant and close the case.

App. 21
SO ORDERED.
Dated: March 20, 2019
New York, New York
/s/ Vernon S. Broderick
Vernon S. Broderick
United States District Judge

App. 22
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
----------------------------------------- X
ZAID ABDUL-AZIZ,
Individually and on behalf of
all others similarly situated,
17 CIVIL 8901 (VSB)

Plaintiff,

JUDGMENT

-against-

(Filed Mar. 20, 2019)

NATIONAL BASKETBALL
ASSOCIATION PLAYERS’
PENSION PLAN,
Defendant.
----------------------------------------- X

It is hereby ORDERED, ADJUDGED AND DECREED: That for the reasons stated in the Court’s
Opinion & Order dated March 20, 2019, Defendant’s
motion to dismiss is GRANTED; accordingly, the case
is closed.
Dated: New York, New York
March 20, 2019
RUBY J. KRAJICK
Clerk of Court
BY:
/s/ K. Mango
Deputy Clerk

